                                                                                       1;
                                                                                       !
                                                                                       I/



                                                                                        I
               CLOSEOUT MEMORANDUM FOR A-01060019                                      I
                                                                                       I


                                                          '
The Vice President for Research (VPR) at University 1 received an e-mail mebsage from
the complainant2 that alleged the subjecf3 a faculty member at University 1, had
plagiarized the complainant's ideas. According to the complainant, the alledkd theft of
his ideas began when he was a post-doctoral researcher at University 2 where the subject
was a graduate student supported by an NSF award.4 The complainant's e-mail explained
that he had already informed University 2 about this allegation. The VPR notibed us that
he had received the allegation and explained that the complainant failed to pbovide any
evidence in support of the allegation. Because the VPR knew that the complainant had
provided this allegation to University 2, he contacted the misconduct bfficial at
University 2.' She informed him that it had initiated an inquiry into this allegation as
well as other allegations against other scientists. The VPR deferred its ''inquiry to
                                                                             'I
University 2.                                                                 I


Prior to learning of the complainant's e-mail to the VPR with the allegation against the
subject, we had learned of the allegations against the subject and other scientists at
University 2 and had deferred our inquiry to University 2.6 Similarly, we diferred our
inquiry to University 1. At the completion of University 2's inquiry, ~Aiversity1
received a copy of the report. University 2's inquiry committee report docurdented that,
despite repeated attempts to get factual information from the complainand he never
provided it. The inquiry committee could not evaluate the allegation against {he subject
without factual evidence. Consequently, University 2 closed the case against the subject
                                                                             II
(and the other scientists) for lack of evidence.

After receipt of University 2's ,inquiry report, the VPR informed our iffice that
University 1 used University 2's inquiry report in lieu of its own. It found {he inquiry
report to be " r k n a b l e and adequate" and closed the case.              I)
                                                                             'I
We concur with University 1's decision to close this case. Like Universities 11 and 2, we
have been unable to obtain factual evidence necessary to evaluate the allegation.
                                                                                  )I
This inquiry is closed and no further action will be taken.

cc: Investigations, IG




                                                                             I/
                                        Page 1 of 1                          , A 01-19
